                                                               O FFICE OF A UDIT S ERVICES , R EGION V
                                                                   233 N ORTH M ICHIGAN , S UITE 1360
                                                                                  C HICAGO , IL 60601

July 27, 2012

Report Number: A-05-12-00010

Craig Campbell
Interim President and CEO
Noridian Administrative Services
900 42nd Street South
Fargo, ND 58103

Dear Mr. Campbell:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled The Medicare Contractor’s Payments in Jurisdiction 6 for
Full Vials of Herceptin Were Often Incorrect. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Stephen Slamar, Audit Manager, at (312) 353-7905 or through email at
Stephen.Slamar@oig.hhs.gov. Please refer to report number A-05-12-00010 in all
correspondence.
                                           Sincerely,



                                             /Sheri L. Fulcher/
                                             Regional Inspector General
                                               for Audit Services
Enclosure
Page 2 – Mr. Craig Campbell


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management and Fee for Service Operations
601 East 12th Street, Room 355
Kansas City, MO 64106
Department of Health and Human Services
            OFFICE OF 

       INSPECTOR GENERAL 





 THE MEDICARE CONTRACTOR’S 

PAYMENTS IN JURISDICTION 6 FOR 

FULL VIALS OF HERCEPTIN WERE 

      OFTEN INCORRECT 





                       Daniel R. Levinson

                        Inspector General 


                           July 2012 

                         A-05-12-00010

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                    EXECUTIVE SUMMARY


BACKGROUND 


Herceptin, also known as trastuzumab, is a Medicare-covered drug used to treat breast cancer
that has spread to other parts of the body. Herceptin comes in a multiuse vial of 440 milligrams.
A multiuse vial contains more than one dose of medication and is labeled as such by the
manufacturer. The manufacturer supplies the drug in a carton containing a multiuse vial of 440
milligrams of Herceptin and one 20-milliliter vial of bacteriostatic water for injection (BWFI)
containing a solution of 1.1 percent benzyl alcohol as a preservative. A vial of Herceptin, when
reconstituted with BWFI and stored properly, can be used for up to 28 days.

For multiuse vials, Medicare pays only for the amount administered to a beneficiary and does not
pay for any discarded drug. Therefore, a payment for an entire multiuse vial is likely to be
incorrect. This audit is part of a nationwide review of the drug Herceptin. The pilot of these
reviews found that the Medicare contractor’s payments for full vials of Herceptin were often
incorrect.

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services administers the program.

Noridian Administrative Services became the fiscal intermediary for the State of Minnesota in
August 1999. On September 30, 2011, CMS awarded the Medicare Administrative Contractor
contract for Jurisdiction 6, which includes Minnesota, to National Government Services;
however, protests were filed against the award. In the meantime, Noridian Administrative
Services, acting as the legacy fiscal intermediary, continues to process claims for providers in
Minnesota. During our audit period (January 1, 2008, through December 31, 2010), 3,634 line
items for Herceptin totaling approximately $6.5 million were processed in Minnesota. Of these
3,634 line items, 464 totaling approximately $1.3 million had unit counts with multiples of 44
(44, 88, 132, etc.) that represent billings equivalent to entire multiuse vials. In this audit, we did
not review entire claims; rather, we reviewed the specific line items within the claims that met
these criteria.

OBJECTIVE

Our objective was to determine whether Medicare payments that Noridian Administrative
Services made to providers for full vials of Herceptin were correct.

SUMMARY OF FINDINGS

Most Medicare payments that Noridian Administrative Services made to providers for full vials
of Herceptin were incorrect. Specifically, of the 464 selected line items, 368 (79 percent) were
incorrect and included overpayments totaling $556,908, or more than two-fifths of total dollars
reviewed. These providers had not identified or refunded these overpayments by the beginning
of our audit. Providers refunded overpayments on 20 line items totaling $83,575 before our
fieldwork. The 76 remaining line items were correct.


                                                   i
On each of the 368 incorrect line items, the providers reported the units of service for the entire
content of 1 or more vial(s), each containing 440 milligrams of Herceptin, rather than reporting
the units of service for the amount actually administered. The providers attributed the incorrect
payments to clerical errors and to billing systems that could not prevent or detect the incorrect
billing of units of service. Noridian Administrative Services made these incorrect payments
because neither the Fiscal Intermediary Standard System nor the Common Working File had
sufficient edits in place during our audit period to prevent or detect the overpayments.

RECOMMENDATIONS

We recommend that Noridian Administrative Services:

   	 recover the $556,908 in identified overpayments,

   	 implement or update system edits that identify for review multiuse-vial drugs that are
      billed with units of service equivalent to the dosage of an entire vial(s), and

   	 use the results of this audit in its provider education activities.

NORIDIAN ADMINISTRATIVE SERVICES COMMENTS

In written comments on our draft report, Noridian Administrative Services concurred with our
recommendations and confirmed the overpayments had been recovered. Noridian
Administrative Services has identified several courses of action to assist in reducing future
overpayments and will continue to work with CMS to update system edits minimizing units of
service overpayments to address our the second recommendation. Regarding our third
recommendation, Noridian Administrative Services distributed an article educating providers on
the proper way to bill units of Herceptin.

Noridian Administrative Services comments are included in their entirety as the Appendix.




                                                  ii
                                                       TABLE OF CONTENTS 




INTRODUCTION ............................................... ........... ........... .... ............................................. 1 


       BACKGROUND ............ ........................... ............... ..... ................................ ............... ........ 1 

         Medicare Contractors ............... ... ............... ..................................................................... 1 

         Claims for Drugs .......... ... ..................... ... ..... ..... ....... .......... .............................. ............... 1 

         Herceptin............................ ....... .... ......... ........ ... ............ .................. ......... ............ .... ....... 2 

         Noridian Administrative Services ... ......... .. .. ................................................... ................ 2 


       OBJECTIVE, SCOPE, AND METHODOLOGy .... ..... ............................................ ..... .. .... 2 

         Objective ..... ......................... .......... ....................................................... .......... ........... ..... 2 

         Scope.............................................................................. .................................... ............. 2 

         Methodology ............... ...................................... .............................................................. 3 


FINDINGS AND RECOMMENDATIONS ...... .............................. ......................................... 4 


       FEDERAL REQUIREMENTS ..................................... .. ................ ........ ... ......... ....... 4 


       OVERPAYMENTS OCCURRED ON MOST LINE ITEMS REVIEWED ...... ....... ....... .. .4 


       CAUSES OF INCORRECT MEDICARE PAyMENTS .......... ...... .. ........... ....... ................. 5 


       RECOMMENDATIONS .. ............. .................................................. .. ....... ...... .. .................... 5 


      NORIDIAN ADMINISTRATIVE SERVICES COMMENTS ........................................... . 5 


APPENDIX 


       NORIDIAN ADMINISTRATIVE SERVICES COMMENTS 





                                                                           III
                                                INTRODUCTION
                                                                                                 \

BACKGROUND

Herceptin I is a Medicare-covered drug used to treat breast cancer that has spread to other parts of
the body. Herceptin comes in a multiuse vial of 440 milligrams. A multiuse vial contains more
than one dose of medication and is labeled as such by the manufacturer. However, for multiuse
vials, Medicare pays only for the amount administered to a beneficiary and does not pay for any
discarded amounts. This audit is part of a nationwide review of the drug Herceptin. The pilot of
these reviews 2 found that the Medicare contractor' s payments for full vials of Herceptin were
often incorrect.

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
claims submitted for outpatient services. 3 The Medicare contractors' responsibilities include
determining reimbursement amounts, conducting reviews and audits, and safeguarding against
fraud and abuse. Federal guidance provides that Medicare contractors must maintain adequate
internal controls over automatic data processing systems to prevent increased program costs and
erroneous or delayed payments. To process providers' claims for outpatient services, the
Medicare contractors use the Fiscal Intermediary Standard System and CMS's Common
Working File (CWF). The CWF can detect certain improper payments during prepayment
validation.

Claims for Drugs

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains line items that detail each provided service. Providers should
use the appropriate Healthcare Common Procedure Coding System (HCPCS) code for the drug
administered and report units of service in multiples of the units shown in the HCPCS narrative
description.4 Multiuse vials are not subject to payment for discarded amounts ofthe drug.


I   Herceptin is Genentech's registered trademark for the drug trastuzumab.

2   Report number A-05-10-00091, issued July 10,2012.

3 Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. In this report, the term "Medicare contractor" means the fiscal intermediary, carrier, or MAC, whichever is
applicable.

4   HepCS codes are used throughout the health care industry to standardize coding for medical procedures.


                                                           1

Multiuse vials are typically used for more than one date of service and can be stored for up to 28
days. Therefore, a payment for an entire multiuse vial is likely to be incorrect.

Herceptin

Herceptin is a monoclonal antibody, one of a group of drugs designed to attack specific cancer
cells. The manufacturer supplies the drug in a carton containing a multiuse vial of
440 milligrams of Herceptin and one 20-milliliter vial of bacteriostatic water for injection
(BWFI) containing a solution of 1.1 percent of benzyl alcohol as a preservative. A vial of
Herceptin, when reconstituted with BWFI and stored properly, can be used for up to 28 days.
When a patient is allergic to BWFI, unpreserved sterile water should be used and any unused
portion ofthe mixture discarded. The HepeS code for Herceptin is J9355, with a narrative
description of "injection, trastuzumab, 10 mg." An entire multiuse vial of 440 milligrams of
reconstituted Herceptin when administered would be reported as 44 units for Medicare billing.

Noridian Administrative Services

Noridian Administrative Services became the fiscal intermediary for the State of Minnesota in
August 1999. On September 30, 2011, eMS awarded the Medicare Administrative Contractor
contract for Jurisdiction 6, which includes Minnesota, to National Government Services;
however, protests were filed against the award. In the meantime, Noridian Administrative
Services, acting as the legacy fiscal intermediary, continues to process claims for providers in
Minnesota. During our audit period (January 1,2008, through December 31,2010), 3,634 line
items were processed for Herceptin in Minnesota.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare payments that Noridian Administrative
Services made to providers for full vials of Herceptin were correct.

Scope

During our audit period, Noridian Administrative Services processed 3,634 outpatient Part B
service line items of Herceptin totaling approximately $6.5 million. Of these 3,634 line items,
464 5 totaling approximately $1.3 million had unit counts with multiples of 44 (44, 88, 132, etc.)
that represent billings equivalent to entire multiuse vials.

We limited our review of Noridian Administrative Services' internal controls to those that were
applicable to the selected payments because our objective did not require an understanding of all
internal controls over the submission and processing of claims. Our review allowed us to



5 One of the 464 line items was included because it exceeded $}O,OOO. While this did not represent a billing
equivalent to a full vial, this high-dollar item was included in our review because it was likely to be an incorrect.



                                                            2

establish reasonable assurance of the authenticity and accuracy of the data obtained from the
National Claims History file, but we did not assess the completeness of the file.

Our fieldwork was conducted from November 2011 through March 2012 and included
contacting Noridian Administrative Services in Fargo, North Dakota, and the 25 providers in
Minnesota that received the selected Medicare payments.

Methodology

To accomplish our objective, we:

   	 reviewed applicable Federal laws, regulations, and guidance;

   	 used CMS’s National Claims History file to identify outpatient line items in which
      payments were made for HCPCS code J9355 (Herceptin);

   	 identified 464 line items in our scope that Noridian Administrative Services paid to 25
      providers;

   	 contacted the 25 providers that received Medicare payments associated with the selected
      line items to determine whether the information conveyed in the selected line items was
      correct and, if not, why the information was incorrect;

   	 reviewed documentation that the providers furnished to verify whether each selected line
      item was billed correctly; specifically we reviewed documentation to support:

           o	 the medical condition of the beneficiary in determining the necessity of the
              medication;
           o	 a physician’s orders for medication;
           o	 that the medication was administered; and
           o	 the type of solution used to reconstitute the Herceptin (BWFI containing
              1.1 percent benzyl alcohol or sterile water);

   	 coordinated the calculation of overpayments with Noridian Administrative Services; and

   	 discussed the results of our review with Noridian Administrative Services on April 5,
      2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                3

                               FINDINGS AND RECOMMENDATIONS 


Most Medicare payments that Noridian Administrative Services made to providers for full vials
of Herceptin were incorrect. Specifically, of the 464 selected line items, 368 (79 percent) were
incorrect and included overpayments totaling $556,908, or more than two-fifths of total dollars
reviewed. These providers had not identified nor refunded these overpayments by the beginning
of our audit. Providers refunded overpayments on 20 line items totaling $83,575 before our
fieldwork. The remaining 76 line items were correct.

On each of the 368 incorrect line items, the providers reported the units of service for the entire
content of 1 or more vial(s), each containing 440 milligrams of Herceptin, rather than reporting
the units of service for the amount actually administered. The providers attributed the incorrect
payments to clerical errors and to billing systems that could not prevent or detect the incorrect
billing of units of service. Noridian Administrative Services made these incorrect payments
because neither the Fiscal Intermediary Standard System nor the CWF had sufficient edits in
place during our audit period to prevent or detect the overpayments.

FEDERAL REQUIREMENTS

CMS's Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23,
section 20.3, states: " ... providers must use HCPCS codes ... for most outpatient services." .
According to chapter 17, section 70, of the Manual, when a provider is billing for a drug
"[w]here HCPCS is required, units are entered in multiples of the units shown in the HCPCS
narrative description. For example, if the description for the code is 50 mg, and 200 mg are
provided, units are shown as 4 ...."

Chapter 17, section 40, of the Manual also states: "Multi-use vials are not subject to payment for
discarded amounts of drug ... ." Finally, chapter 1, section 80.3.2.2, of the Manual states: "In
order to be processed correctly and promptly, a bill must be completed accurately."

OVERPAYMENTS OCCURRED ON MOST LINE ITEMS REVIEWED

Providers reported incorrect units of service on 368 (79 percent) of the 464 line items reviewed,
resulting in overpayments totaling $556,908 (42 percent) of the $1.3 million total dollars
reviewed. Providers billed Medicare for the entire vial containing 440 milligrams of Herceptin,
rather than billing only for the amount actually administered.

For example, one provider administered 600 milligrams of Herceptin to a patient and billed for
88 units of service (880 milligrams). Based on the HCPCS description of Herceptin (injection,
trastuzumab, 10 milligrams), the number of units to be reported for 600 milligrams is 60. 6 This
error occurred on 14 separate occasions for 1 patient; as a result, Noridian Administrative
Services paid the provider $67,276 when it should have paid $44,652 an overpayment of
$22,624.

6 If the drug dose used in the care ofa patient is not a multiple of the HepeS code dosage descriptor, the provider
rounds to the next highest unit based on the HepeS long descriptor to report the dose.




                                                          4
CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect payments to clerical errors and to billing systems that
could not prevent or detect the incorrect billing of units of service. Noridian Administrative
Services made these incorrect payments because neither the Fiscal Intermediary Standard System
nor the CWF had sufficient edits in place to prevent or detect the overpayments. In effect, CMS
relied on beneficiaries to review their Medicare Summary Notice7 and disclose any
overpayments.

RECOMMENDATIONS

We recommend that Noridian Administrative Services:

    	 recover the $556,908 in identified overpayments,

    	 implement or update system edits that identify for review multiuse-vial drugs that are
       billed with units of service equivalent to the dosage of an entire vial(s), and

    	 use the results of this audit in its provider education activities.

NORIDIAN ADMINISTRATIVE SERVICES COMMENTS

In written comments on our draft report, Noridian Administrative Services concurred with our
recommendations and confirmed the overpayments had been recovered. Noridian
Administrative Services has identified several courses of action to assist in reducing future
overpayments and will continue to work with CMS to update system edits minimizing units of
service overpayments to address our the second recommendation. Regarding our third
recommendation, Noridian Administrative Services distributed an article educating providers on
the proper way to bill units of Herceptin.

Noridian Administrative Services comments are included in their entirety as the Appendix.




7
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.



                                                         5

APPENDIX 

                                                                                                                        Page 1 of2


APPENDIX: NORIDIAN ADMINISTRATIVE SERVICES COMMENTS 




~
NORIDIAN® 	
Administrative Services LLC
                                                                                                   Medicare
        July 17,2012

        Slle,riF1llcller
        Regional Inspector General forA.udit Services
        Office of Jru.-pector General
        Region V 

        233NoIthM:ichigan,slliteh6() 

        Chicago, IL 6060 1 


        RE: Report Num.berA,05,1~.OO"()1() - NA$'AmendedR,esponse to the Dmit.Report

        Deat'Ms. Fulcher:

        Thank you for the 'Opportunity toreSpolld tothe draft report ofthe U.S..Department ofHealth &
        HumanSeO/iees,Office ofInspeetor General (OlG) dated June 1,2012, entitled, The Medicare
        C()!ltrG(;t()r'oS PflYlffl111t,r il1,flfrisdfcfjon6.fo,. PII!tVla/sojNerc.eptin W'e:reOjtell Incprrec.t. We
        cOllcurwjth the. re!;QmmendatioI~made bythe 010. NAS has provided our amended responsesto
        the rec-onunendations withinlhecontents oHms lettere The course obetion thatNAS has planned
        wlll .beanongoillgefi''OIt dl¥lt0l11ee4tej1ti)f~tivitiesplmmedan(i~iimeassociated With the
        research. deYel"'pnIent,.IesPng, ·andimp!.e:Illent~on9fcertaill irJitiatives.
        NAS iesear~hed the chum inf011IlaUon andl,{etaiJs provi4edby the()IG and have identified
        sevf;lfl)l cOursesofacti()nNAS \ViII perfonn 19 assist incf;lduciJ)g futl.1{'eovf;lrpayments.The
        CPl'IHq>Ccode, J.935 5identiliedinthisaudit,i~llO\V iW;lWledontlle.llon;'pUNished Medical
        Uhlikely.Edits (MUE)listing llltdnas liunitof serVice limit as of A.prill, ZQIl.1\1UEsare edits
        in the~andard part,Asystem.FISS, llltd~h()J1M assistilllrUnimizi.nguru-t ofservice overpaYIT\f;lnls
        in the future.

        Iris ittiportilntlo n.~ tli!\tl'uttlfe oVeW*Ym-(;tltsJililY ·still. Pepo~blebec<lll$e Medicllie
        contnJctorsare not11mded tO~rform lOOo/'>cOITlplex review of claims. Willi9utl).comparisonof
        medicalrecorlisandcomng onIQOO/O ofdaiJnsbilied,thete will iJIways be the potential for
        overpayments {andundetpiiyments):reSultingftom bill~ineorrectPf()(;edUte eodes, units of
        service, an<!.otllefetailtlS paYIT\entil\~~~()rs. NA.S.wi114Q o)lf du,ed,ilcige.nce to ayoi(i
        overpayments witllillthescope ofourcontl.'llCts, authorlzation, andexpepence. ..i\n irnportanttool
        orstelJill this pr()(;ess that NAShas considered is to rnal;erefettalstothe PtogralJ.1 Safeguard
        C~Ol'(~SC~ Rf;lCoyelYA'Udl.t C~~tors (RAq~ andCM'Sas a-tru(.t11OOofbusiness

        col.laPoratim..                                      .

        OIGRECOMMEl'If'j)ATIO:!'1S":

             • 	 RecOvertke $$~,~lQl<l~~fl¢dO'Veli"~~Ifl¢Qt$
                       N~R~~;NAS cqm;urswiththe recornrnen<'4ltionthat allovetpilymentS
                       iililntified ar-e to be ·colle~ed.




                                                                                                                      (3203)3.00
                                                                                                     Page 2 of2




    •	   Det~rmine  the amount of overpayment for the 368 incorrect line item payments and
         recover that amount.
                NASResponse: As stated in the draft repor~ providers refunded on 20 line items
                totaling $83,575 before fieldwork began. There were 3681ine itetnll remaining to
                be collected on.

                On each ofthe368incon'ect lineitems; the providers reported the units of
                service for -the entire .contents ofone or more vials, each containing 440
                milligrams of Herceptin, rather th;m repqfting the units of service for the amount
                actually admini~tered.

                On Tl\esday, January 17, 2012, NAS received the detliled claims listing/findings
                from the OIG and has since recovered all overpayments related to this issue.

    •    Implementsystem edits that identity line item payments that exceed billed charges
         by a prescribed amount
                 NAS Response: NAS concurs with this recommendation. A national Medically
                 Unlikely Edit (MUE) for Herceptin was implemented by CMS on April 1, 20 I L
                NAS continues to work with eMS, FISS, and the NIUE Advisory Committee to
                refme NIUE unit .of service limits that may, in some cases, be set too high.

    • 	 Use the results of this audit in its provider education activities 

                NAS Response: NAS plans the following provider education .activiti es : 


                     • 	 A provider education article has been distributed via the listserv and
                         posted to the NAS website in .Tune 2012, to educate providers on the
                         proper way to bill units ofHerceptin.

Please advise if additiona l infOtmation or further clarification is needed on any ofour response.
Please contact Paul O'Donnell, Medicare Operations Vice President,at (701)277-2401, or
through e-mail atPauI.ODonnell@noridian.com.


Sincerely,

Is! PaulO 'Donnell

Paul O' Donnell
Vice President
Noridian Administrative Services, LLC
